No.

iqIN THE

SUPREME COURT OF THE UNITED
STATES
David BRENNAN
Petitioner
vs.

WHITE COUNTY, ARKANSAS
Respondent
iclc'kie'kick'k'k'kic'kic'k'k'k

On Petition for Writ of Certiorari
to the Arkansas Court of Appeals

PETITION FOR WRIT OF CERTIORARI
Submitted by:
David Brennan
1200 Curd Drive, lot 8
Searcy, AR 72143
501-388-5106
MagicGritsLegal@gmail.com
prose

i

QUESTIONS PRESENTED FOR REVIEW
1.
Is Arkansas' local option law, which
social science research shows is ineffective at
reducing alcohol consumption and actually increases
DWI fatality rates, rationally related to the
legitimate governmental purpose of controlling the ill
effects of alcohol when viewed in light of a highlydeveloped highway system, the ubiquity of the
automobile, and the affordability of gasoline?
2.
Has Arkansas' local option law acquired
an unconstitutional irrationality under federal
substantive due process standards by way of
subsequent legislation allowing the serving of alcohol
by the drink in an unlimited number of “private
clubs,” including restaurants, in dry jurisdictions?

3.
Is Arkansas' local option law
unconstitutional under federal substantive due
process standards as a mere artifice for the
unconstitutional imposition of the morality of local
majorities on those whose conduct does not harm
others?

11

PARTIES TO THE PROCEEDING
The parties to the proceeding are the
Petitioner, David Brennan, and the Respondent,
White County, Arkansas.
Because this case presents challenges to the
constitutionality of an Arkansas statute, 28 U.S.C. §
2403(b) may apply, and the Petition has been served
upon the Arkansas Attorney General.
RELATED PROCEEDINGS
David Brennan v. White County, Arkansas,
Circuit Court for the 17th Judicial Circuit — White
County, Arkansas, No. 73CV17-502. Order of
Dismissal April 24, 2018.
David Brennan v. White County, Arkansas,
Arkansas Court of Appeals, No. CV* 18-638. Opinion
entered March 6, 2019. Rehearing denied April 3,
2019.
David Brennan v. White County, Arkansas,
Supreme Court of Arkansas (Petition for Review),
No. CV* 19-228. Review denied May 23, 2019.
TABLE OF CONTENTS
Questions Presented for Review
Parties to the Proceeding
Related Proceedings
Reports of Opinions
Basis for Jurisdiction
Laws Involved
Statement of the Case

i

n
n
1
1
1
2

Ill

5
Argument
Introduction
5
8
Reasons for Granting the Writ
An ineffective and
8
Deadly Law
11
Acquired Irrationality
13
Legislation of Morality
Contravention of Supreme
14
Court Precedent
15
Conclusion
Appendix
App. 2
Arkansas Court of Appeals Opinion
App. 13
Letter Order Denying Rehearing
App. 14
Letter Order Denying Review
United States Constitution, Amendment V App. 15
United States Constitution, Amendment XIV
App. 15
Section 1
App. 16
Ark. Code Ann. § 3-8-803(a)
App. 16
Ark. Code Ann. §3-9-221
App. 21
Ark. Code Ann. § 16-111102

TABLE OF AUTHORITIES
Ark. Code Ann. § 3-8-803(a)
Ark. Code Ann. § 3-9*221
Ark. Code Ann. § 16-111-102
44 Liquormart, Inc. v. Rhode Island,
517 U.S. 484, 116 S.Ct. 1495 (1996)

2
3
3

14

IV

Barnes v.Ark. Dep't ofFin. & Admin.,
2012 Ark. App.237,419 S.W.3d 20,29
(2012) (Gruber, J., dissenting)

12

California v. laRue, 409 U.S. 109,
93 S.Ct. 390 (1972)

14

Heller v. Doe, 509 U.S. 312,
113 S.Ct. 2637 (1993)

15

Lawrence v. Texas, 539 U.S. 558, (2003)
Red River Constr. Co. v. City ofNorman,
62.4 P.2d 1064 (Okla. 1981)
Romer v. Evans, 517 U.S. 620,
116 S.Ct. 1620 (1996)

5*6, 11, 13
9
14

1
REPORTS OF OPINIONS
Brennan v. White County, Arkansas, 2019 Ark. App.
146
BASIS FOR JURISDICTION
Petitioner seeks review of the final Opinion of
the highest Arkansas court in which a decision could
be had. The case challenges the constitutionality of
an Arkansas statute.
The Arkansas Court of Appeals has decided
important questions of federal law that have not
been but should be decided by this Court.
The Arkansas Court of Appeals has decided a
question of federal law in a manner that is
inconsistent with precedents of this Court.
The Opinion for which review is sought was
entered on March 6, 2019. The Arkansas Court of
Appeals denied rehearing on April 3, 2019, and the
Supreme Court of Arkansas denied review, with one
Justice voting to grant, on May 23, 2019.
Petitioner applied August 21, 2019, to the
Honorable Neil M. Gorsuch, Associate Justice, for an
extension of time in which to file this petition. The
application was granted on August 26, 2019,
extending the fifing date to September 5, 2019.
Jurisdiction is conferred on this Court by 28
U.S.C. § 1257(a).
LAWS INVOLVED
United States Constitution, Amendment V

App. 15

2

United States Constitution, Amendment XIV
App. 15
Section 1.
Ark. Code Ann. § 3*8*803(a)

App. 16

Ark. Code Ann. § 3*9*221

App. 16

Ark. Code Ann. § 16*111*102

App. 21

STATEMENT OF THE CASE
Prior to the 18th Amendment and national
prohibition, many states had “local option” laws
giving their political subdivisions authority to
determine the legality of the manufacture and sale of
alcoholic beverages. Since the end of national
prohibition with the 21st Amendment, many states
re-adopted such laws. State maps indicating “dry”
and “wet” jurisdictions came to resemble patchwork
quilts. Arkansas has had some sort of local option
since 1935, and the State's current local option
framework allowing political subdivisions to
determine prohibition by petition and popular vote
was adopted, itself by popular vote, in 1942 and has
been amended numerous times since. Ark. Code
Ann. § 3*8*803(a) (App. 15) establishes that
prohibition may be determined by the voters of any
"county, township, municipality, ward, or precinct.”
This framework creates a situation where
prohibition may exist literally on one side of the
street but not the other.

3
After failed attempts in 1956 and 1958, White
County was voted dry under the local option law on
November 8, 1960. In 1969, Arkansas passed its
private club law allowing for the service of alcohol by
the drink for on-premise consumption at “private
clubs” in dry jurisdictions without numerical limit on
the number of such clubs in any given county,
township, municipality, ward, or precinct. (Ark.
Code Ann. § 3-9-221) (App. 16) As amended and as
interpreted, the definition of “private club” includes
restaurants serving alcohol.
On September 11, 2017, Petitioner filed his
action for a determination as to the constitutionality
of White County's prohibition and Arkansas' local
option framework in the Circuit Court for the 17th
Judicial Circuit (White County, Arkansas) pursuant
to Ark. Code Aim. § 16-111-102 (App. 21). The
statute provides a cause of action for the
determination of the constitutionality of a law by any
person affected by the law in their “rights, status, or
other legal relations.” The County defended, but the
State elected not to exercise its statutory right to be
heard and defend the local option.
In his complaint, Petitioner alleged that he
was affected in his rights, status, or legal relations
by Arkansas' local option law and White County's
prohibition established thereunder. Some of
Petitioner's original claims regarding the laws'
impact to his legal relations have been rendered
moot by the granting of a small but growing number
of private club licenses to restaurants in his county
and city of residence. His central claims, however,
survive - specifically his claim that the laws deny

f

4
him the ability to even apply to engage in the
business of owning and operating a package store,
which is not prohibited as a matter of state law, and
that the laws expose him to unnecessary danger on
the streets and highways by increasing the distances
driven by impaired drivers and thereby the number
of DWI fatalities.
Petitioner brought novel arguments that the
laws are invalid under federal substantive due
process standards. Specifically, Petitioner argued
that these laws are unconstitutional as mere artifices
for the imposition of the morality of local majorities
on those whose conduct does not harm others, that
they lack any rational basis because they are
ineffective at reducing alcohol consumption and
actually increase DWI fatalities, and that any
rational basis these laws may have had at the time of
their passage has been obliterated by the subsequent
private club legislation.
The County did not challenge Petitioner's
standing to bring the action. Petitioner alleged and
the County did not challenge that the local option is
completely ineffective at reducing alcohol
consumption, that the local option actually increases
the distances driven by impaired drivers, and that
states with local-level prohibition actually have
higher DWI fatality rates than states with statewide
legal alcohol.
The County moved to dismiss due to the fact
that local option laws have been held constitutional
under a variety of other challenges and are therefore
constitutional as a matter of law. The Circuit Court
agreed and dismissed.

5

Petitioner filed a de novo appeal to the
Arkansas Court of Appeals. In an opinion dated
March 9, 2019, the Arkansas Court of Appeals
affirmed the Circuit Court. The Arkansas Court of
Appeals held that, because the local option and
White County's prohibition are nominally aimed at
the regulation of alcohol, they have a rational basis.
That court held that whether the laws are ineffective
or even harmful or counterproductive is irrelevant to
rational basis analysis. (App. 8-9) That court also
flatly rejected Petitioner's novel argument that the
local option was robbed of its rationality under
federal due process standards by subsequent
legislation at cross purposes, holding that Arkansas'
local option, which pursues the aim of reducing
alcohol consumption, and its private club law, which
mandates the serving of alcohol by the glass at
limitless numbers of “private club” restaurants in
dry jurisdictions can be “read in harmony.” (App. 12)
Rehearing was denied April 3, 2019 (App. 13),
and the Supreme Court of Arkansas denied review
on May 23, 2019 (App. 14).

ARGUMENT
Introduction
Had those who drew and ratified the
Due Process Clauses of the Fifth
Amendment or the Fourteenth
Amendment known the components of

6
liberty in its manifold possibilities, they
might have been more specific. They did
not presume to have this insight. They
knew times can blind us to certain
truths and later generations can see
that laws once thought necessary and
proper in fact serve only to oppress. As
the Constitution endures, persons in
every generation can invoke its
principles in their own search for
greater freedom.
Lawrence v. Texas, 539 U.S. 558, 578 (2003).
Today another important component of liberty
and due process cries out to this Court. It cries out
from the multitudes who do not believe the
consumption of alcoholic beverages is inherently
harmful or immoral and who yet chafe under
oppressive laws which require them to drive across
one or more counties for a legal bottle of wine to
enjoy over dinner with their families or a legal sixpack to enjoy while watching the game with their
friends in the comfort of their homes. It cries out
from the underfunded health, safety, and welfare
programs of the counties that send tens of millions of
dollars in tax revenue away to be collected in the
county line liquor megastores. It cries out from the
homes of the children whose families have been
destroyed by the loss of a parent to a drunk driver
coming home to a dry county from a wet county. It
cries out through the fife-long struggles of those who
have been grievously injured by such impaired
drivers, and it cries out from the graves that have
been filled by such drivers in the name of the

7

untouchable local option.
It cries out, too, from the shattered homes, the
broken bodies, and the funerals yet to come which
could be avoided by the simple, uniform, nationwide
application of the principles of substantive due
process to local option laws in the light of social
science, our modern culture and infrastructure, and
subsequent legislation which can only be seen as
giving lip service to the local option while actually
undermining its purposes.
Alcohol has long been one of the most divisive
issues in America. When it comes to prohibition, we
have a long and inglorious history of pointedly
ignoring the historically obvious - that it just doesn't
work and that it is, in bitter truth and stark logic, an
artifice for one segment of the population to impose
its morality on the rest... or at least feel like it has.
Perhaps with this case, we can as a nation at long
last abandon the pretense that there is a rational
basis for prohibition at any level.
Alcohol has its issues to be sure, and when it
is misused and abused, it wreaks havoc. It is
rational and just to want to address the evils
attendant to alcohol misuse and abuse. It is, in fact,
noble. The Noble Experiment failed, however, and it
only took thirteen years for America to recognize its
utter futility. Eighty-six years hence, we have
occasion to conduct a sober rational basis analysis of
three novel federal questions and, in so doing, end
our long national delusion that these laws have any
rational relation to any legitimate governmental
purpose.

8

Reasons for Granting the Writ
The Arkansas Court of Appeals has decided
important questions of federal constitutional law
that have not been but should be decided by this
Court (Rule 10(c)) and has decided one of these
questions in a way that conflicts with decisions of
other state courts of last resort (Rule 10(b)). The
Arkansas Court of Appeals has also decided two of
these questions in a way that conflicts with decisions
of this Court concerning the rational basis test (Rule
10(c).
Petitioner presented three novel questions to
the Arkansas courts which are important enough in
their impact and their consequences as to require at
the present moment and henceforth one uniform
national rule announced by this Court.
An Ineffective and Deadly Law
The first question presented for review is a
novel one: is Arkansas' local option law, which social
science research shows is ineffective at reducing
alcohol consumption and actually increases DWI
fatality rates, rationally related to the legitimate
governmental purpose of controlling the ill effects of
alcohol when viewed in light of a highly-developed
highway system, the ubiquity of the automobile, and
the affordability of gasoline? The Arkansas Court of
Appeals has held that whether a law is wholly
ineffective or even counterproductive is irrelevant to
rational basis analysis. (App. 8-9)
This question may be broken down into four

9
component questions, three of which are just
questions of degree. First, can a law which is
ineffective to its purpose be held to be rationally
related to that purpose? Second, can a law which is
counterproductive to its purpose be held to be
rationally related to that purpose? Third, can a law
that actually harms the public good and increases
loss of human life in pursuit of its purpose be held to
be rationally related to that purpose? The fourth
component question is one of context. Must the
rationality of a law be determined in the context of
the time when it it was passed or the time in which it
is challenged?
This court has not yet directly weighed these
considerations. The question of whether an
ineffective or counterproductive law or a law which
actually costs innocent human life in pursuit of its
purpose can be rationally related to that purpose is
an important aspect of the rational basis standard
which is sorely in need of development by this court.
At least one state has invalidated a local law
under the rational basis standard where it was
shown to be counterproductive to its purpose. In Red
River Constr. Co. v. City ofNorman, 624P.2d 1064
(Okla. 1981), the Supreme Court of Oklahoma held
that an ordinance which was counterproductive had
no rational relation to its purpose and enjoined its
enforcement. The Arkansas Court of Appeals
determination that whether a law is ineffective or
even counterproductive is irrelevant to rational basis
analysis is directly contradictory. This court should
settle the question.
Petitioner alleged without contradiction or

10
challenge at any point that recent social science
research shows local enactments of prohibition to be
ineffective at reducing alcohol consumption - not
partially effective or barely effective but ineffective.
Petitioner alleged without contradiction at any
point that recent social science research shows the
local option actually increases DWI fatality rates. It
isn't sensationalist to say that the local option kills.
It is simply bluntly factual. What must be
determined is whether a law - even if passed with
the best of intentions — which actually costs innocent
human life, is rational under federal substantive due
process standards.
Do people harm themselves and others
through the misuse and abuse of alcohol? It is an
obvious and sad fact that they do. Do people die due
to the misuse and abuse of alcohol? Without a doubt
they do. The misuse and abuse of alcohol has many
more detrimental effects on society than these few.
Is it rational, though, to pursue a diminution of those
tragic effects by means of a law which actually brings
about its own danger and death? That is a question
presented for the first time in this case. The Petition
should be granted so that this Court may determine
this very important and novel question.
Assuming arguendo that the local option had a
rational relation to reducing alcohol consumption at
the time it was enacted, we must recognize that
times change and infrastructure develops.
Compared to 1935, 1942, and even 1960, Arkansas
and the rest of the country have a vastly more
developed highway system. In addition, the
automobile has become ubiquitous, and gasoline is

11
cheap. Travel from one political subdivision to
another is phenomenally easier today than it was
when these laws came on the books. Thus, another
aspect of this first question is whether the rationality
of these laws must be judged by the times and
circumstances in which they were enacted or by the
times and circumstances as they have changed. This
Court's words from Lawrence v. Texas, Supra, quoted
above, indicate that the constitutionality of a law
must be judged by the circumstances of our time —
not by the circumstances of a bygone time.
It seems this Court already knows that a law
may acquire an unconstitutional irrationality with
the passage of time. It should now decide if a law
can acquire irrationality in another way.
Acquired Irrationality
The second question presented for review is
also a novel one: has Arkansas' local option law
acquired an unconstitutional irrationality under
federal substantive due process standards by way of
subsequent legislation allowing the serving of alcohol
by the drink in an unlimited number of “private
clubs,” including restaurants, in dry jurisdictions?
This question of acquired irrationality has not until
now come before this Court, but it begs for a
resolution binding throughout our nation. This
Court should now decide if a state robs one statute of
its rational basis by subsequently wholly and
knowingly undermining that statute by legislating
directly against its purpose.
With its local option law and its private club

12
law both in force, the State is pursuing reduced
alcohol consumption with one law while mandating
the availability of alcohol in dry jurisdictions with
another. The laws are not just incompatible - they
serve diametrically opposed purposes. Arkansas can
only rationally pursue one purpose at a time — either
the purpose to reduce alcohol consumption or the
purpose to increase its availability in dry
jurisdictions. It cannot do both. At least one judge
on the Arkansas Court of Appeals has recognized this
obvious reality, stating that the private club law, as
amended and interpreted to include as “private
clubs” restaurants serving alcohol in dry
jurisdictions, “effectively nullifies” the local option.
Barnes v.Ark. Dep't ofFin. & Admin., 2012 Ark.
App.237,419 S.W.3d 20, 29 (2012) (Gruber, J.,
dissenting). In that dissent, Justice Gruber
recognized that the purpose of the local option law is
the reduction of the consumption of alcohol and that
the private club law is anathema to that purpose.
On merits, Petitioner will show that, when,
due to changing times and state governmental
priorities, an antiquated law has been effectively
nullified by the passage of another, the old law no
longer bears a rational relation to any purpose,
legitimate or not. It is therefore unconstitutional
under federal substantive due process standards.
Arkansas' local option is simply not rationally
related to any public health, safety, or welfare
purpose, because it is simply not effective at reducing
alcohol consumption if it ever even was. It is,
however, rationally related to something ... local
majority moral attitudes toward alcohol.

13
Legislation of Morality
Like the two questions before it, the third
question presented for review is also novel: is
Arkansas' local option law unconstitutional under
federal substantive due process standards as a mere
artifice for the unconstitutional imposition of the
morality of local majorities on those whose conduct
does not harm others? It is an important question
which is presented to this Court now for the first
time. In fact, no federal court of appeals or state
court of last resort has decided this specific question.
With Lawrence v. Texas, it became abundantly
and explicitly clear that the imposition of morality is
not a legitimate governmental purpose. Petitioner
has argued that the only thing to which the local
option is rationally related is the local majority
attitudes about the morality of alcohol.
Understanding that the local option is no longer even
remotely effective at reducing alcohol consumption if
it ever had been, the question is what, if anything, it
and White County's prohibition are rationally related
to. Petitioner has consistently argued that the only
thing the local option is rationally related to is the
local majority moral attitudes toward alcohol. The
incontrovertible ineffectiveness of prohibition at
reducing alcohol consumption at any level and the
undeniable origins of the prohibition movement in
America's protestant Great Awakening bear this out.
They therefore serve only as a suppression of liberty
■ to codify into law the moral attitudes of local
majorities and impose the strictures of those
attitudes on the whole - even if only nominally.

14
Contravention of Supreme Court Precedent
From the outset, the Arkansas Court of
Appeals applied a standard that has been expressly
disavowed by this Court. That court clearly
proceeded conducting its rational basis review
applying the added presumption of validity from
California v. laRue, 409 U.S. 109, 93 S.Ct. 390
(1972). (App. 7) If the increased presumption was
not applied, there would have been no occasion to
cite the case. Its application runs afoul of this
Court's explicit rejection of that added presumption
in 44 Liquormart, Inc. v. Rhode Island, 5 17 tJ.S. 484,
116 S.Ct. 1495 (1996).
Further, the Arkansas Court of Appeals held
that the actual rational relation of a statute is
irrelevant and all that matters is that “there is any
rational basis that demonstrates the possibility of a
deliberate nexus with state objectives so that the
legislation is not the product of arbitrary and
With
capricious government purposes.” (App. 8-9)
respect to the rational basis test, this Court has held
that
... even in the ordinary equal protection
case calling for the most deferential of
standards, we insist on knowing the
relation between the classification
adopted and the object to be attained.
The search for the link between
classification and objective gives
substance to the Equal Protection
Clause...
Romer v. Evans, 517 U.S. 620, 632, 116 S.Ct. 1620

15
(1996). That search also gives substance to the Due
Process Clause. Absent knowledge of the actual
relation, substantive due process analysis (and equal
protection analysis) would be nothing more than an
exercise in speculation without regard for the
realities of the subject. This Court, on the other
hand, has held- “True, even the standard of
rationality as we so often have defined it must find
some footing in the realities of the subject addressed
by the legislation.” Heller v. Doe, 509 U.S. 312, 321,
113 S.Ct. 2637 (1993).
Conclusion
It is true enough that courts are not to sit as
superlegislatures judging the wisdom or rightness of
laws! however, in order for rational basis analysis
and the word rational to have real meaning in our
time, this Court should grant the requested writ so
that the important and novel federal questions set
out herein can be decided in accordance with this
Court's precedents on substantive due process and
the rational basis standard.
Given the disagreement between states, this
Court should settle the question of whether a law
which is ineffective or counterproductive to its
purpose is actually rationally related to that purpose.
Given that the Arkansas Court of Appeals has
decided this matter in a manner which conflicts
precedent of this Court regarding the application of
the rational basis standard, this Court should grant
the Petition in order to vindicate federal law in this
important context.

16
Most importantly, this Court should grant the
petition so that the States will henceforth know that
laws which kill and endanger innocents in the name
of the public health, safety, and welfare - no matter
how well-intentioned - are not rationally related to
their purpose, lack substantive due process, and are
repugnant to the Constitution.
Time passes. Things change. It isn't the
1930s or 1940s anymore. It isn't even the 1960s
anymore. This Court should grant the Petition to,
weigh these laws and measure their rationality in
the light of our times and not those of a bygone era,
applying the timeless principles of substantive due
process embodied in the rational basis standard.
This Court should now determine, once and for all, if
these laws are rational attempts to combat the
ravages of alcohol or mere artifices for the
codification of the morality of the majority.
Respectfully submitted,
David Brennan
1200 Curd Drive, lot 8
Searcy, AR 72143
501-388-5106
MagicGritsLegal@gmail.com

